UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




               Survey of the
     Office of Representation Appeals


                Report No. OIG-AMR-44-05-01




                                              January 2005
INSPECTOR GENERAL




      NATIONAL LABOR RELATIONS BOARD
                        WASHINGTON, DC 20570

January 07, 2005

I hereby submit a Survey of the Office of Representation Appeals, Report No.
OIG-AMR-44-05-01. This survey was conducted to gather information about
the Office of Representation Appeals (R Unit) to determine functions performed
by the office and identify internal controls that management exercises in
carrying out its mission.

The Board, exercising authority granted by the National Labor Relations Act, as
amended, delegated to Regional Directors its authority to determine the unit
appropriate for the purpose of collective bargaining, to determine whether a
question of representation exists, and to direct elections and certify the results.
The Regional Director, based on the hearing record and briefs of the parties,
issues a decision determining whether a question concerning representation
exists and the appropriate bargaining unit.

Regional Director's decisions in representation cases (R cases) may be appealed
to the Board. R cases can be assigned to the R Unit or a Board Member's staff.
Those assigned to the R Unit are mostly requests for review of pre-election
Regional Director's decisions, but also include some post-election decisions. R
cases assigned to a Board Member’s staff are mostly post-election reports on
objections and challenges in which the Regional Director ordered a hearing and
exceptions to the Hearing Officer's Report are filed with the Board.

During Fiscal Year (FY) 2004, the Board received approximately 390 R cases.
The R Unit was assigned 288 of these cases. Nearly 81 percent of the cases
received by the R Unit were requests for review in pre-election cases. About 62
percent of the requests for review were of a Regional Director's decision and
direction of election (D&DE) with the remainder being decisions and orders and
administrative dismissals. The timely issuance of D&DEs is critical because an
election is already scheduled and if the issue is not decided before the election,
the ballots are impounded until a decision is reached.
Over thc past 6 years, the number of R Unit cases pending ranged from 7 0 in
FY 2000 to 145 in FY 2002 and decreased to 115 cases a t the end of FY 2004.
The increases in pending cases since FY 2000 occurred even though the
number of cases received decreased significantly. We did not identify
potentially significant structural or procedural issues within the R Unit that
contributed to the fluctuations in caseload. We concluded, therefore, that a
more detailed review of the R Unit was not necessary a t this time.

In addition to presenting information regarding R Unit performance, we
identified tu7o issues.

      The Agency did not u s e its formal System Development Life Cycle (SDLC)
      Model when making two changes to the Pending Case List Tracking
      System (PCL) in FY 2004. PCL is part of the Judicial Case Management
      System (,JCMS). The documentation that the Agency is using a spiral
      SDLC in lieu of the formal SDLC was created and provided to the OIG in
      response to the discussion document for this survey.

      The FY 2003 Annual Performance Report provides results showing that
      the Agency achieved the R Unit related performance goal In FYs 2000
      through 2003. The FY 2003 results were calculated consistently with the
      FY 2002 calculation. If the calculation, however, was consistent with the
      narrative, the reported result would increase from 14 days to 17 days.
      The point is now moot because this imeasure h a s been dropped a s a goal
      for FY 2005 a n d beyond.

An exit conference was held on October 1, 2004 with the R Unit Director.
Subsequent meetings were also held with senior Board management so that
they could provide additional information. They agreed with our descript.ions of
the processes in the R Unit. The R Unit Director submitted written comments
to the draft report. His comments included that the draft report understates
the number of cases received by the R Unit in recent years, gives a n incomplete
a n d inaccurate picture of the length of time D&DE cases are pending, does not
fully explain why the GPRA 14-day median calculation is calculated from the
date assigned to counsel, a n d t h a t we incorrectly stated that the Agency
created a JCMS-specific SDLC in response to our discussion document report.
The Director's comments are addressed in the applicable section of this report
a n d presented in their entiretv a s a n appendix to this report.



                                  /Jane   E Altenhofen    /
                                     Inspector General
                                    TABLE OF CONTENTS

BACKGROUND ...................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY .....................................2

FINDINGS...........................................................................................3

REQUESTS FOR REVIEW ...................................................................3

SDLC MODEL FOR PCL ......................................................................6

COMPUTATION OF RESULTS ACT STATISTIC ....................................8

ATTACHMENT – R UNIT PROCESSES ...............................................10

APPENDIX

     Memorandum from the Director, Office of Representation Appeals, Report
     "Survey of the Office of Representation Appeals" (OIG-AMR-44)
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2004 appropriation authorized 1,952 full-time
equivalents that were located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $244,072,983 for FY 2004, less an across-the-board
reduction of .59 percent, leaving a net spending ceiling of $242,632,952.

The Board, exercising authority granted by the NLRA, delegated to the Regional
Directors its authority to determine the unit appropriate for the purpose of
collective bargaining, to determine whether a question of representation exists,
and to direct elections and certify results. The Regional Director, based on the
hearing record and briefs of the parties, issues a decision determining whether
a question concerning representation exists and the appropriate bargaining
unit. The Regional Director's decision sets forth findings of fact, conclusions of
law, and a direction of election or order dismissing the petition.

Regional Director's decisions in representation cases (R cases) may be appealed
to the Board. R cases can be assigned to the Office of Representation Appeals
(R Unit) or a Board Member's staff. Those assigned to the R Unit are mostly
requests for review of pre-election Regional Director's decisions, but also
include some post-election decisions. R cases assigned to a Board Member’s
staff are mostly post-election reports on objections and challenges in which the
Regional Director ordered a hearing and exceptions to the Hearing Officer's
Report are filed with the Board.

During FY 2004, the Board received approximately 390 R cases. The R Unit
was assigned 288 of these cases. Nearly 81 percent of the cases received by
the R Unit were requests for review in pre-election cases. About 62 percent of
the requests for review were of a Regional Director's decision and direction of
election (D&DE) with the remainder being decisions and orders and
administrative dismissals. The timeliness of issuing D&DEs is critical because
an election is already scheduled and if the issue is not decided before the
election, the ballots are impounded until a decision is reached. A description
of the R Unit processes appears as an attachment to this report.

The R Unit is comprised of the Director, 2 supervisory attorneys, 10 attorneys,
and 2 support staff. The R Unit Director stated that the office has maintained
the same number of full-time equivalents since 1999 and, except for normal
attrition, the R Unit has been fully staffed since then.



                                        1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this survey were to gather information about the R Unit to
determine functions performed by the office and identify internal controls that
management exercises in carrying out its mission. Our scope included R cases
handled by the R Unit in FY 2003.

We interviewed employees in the R Unit to learn about the processes used for
managing its caseload. We interviewed employees in the Office of Executive
Secretary (OES) to determine its function in handling R case appeals, to learn
about the functions and development of the Pending Case List Tracking System
(PCL), and to learn how the Agency's measures were calculated for the FY 2003
Annual Performance Report required by the Government Performance and
Results Act (Results Act). We interviewed staff in the Information Technology
Branch to learn about the System Development Life Cycle (SDLC) Model.

We reviewed the NLRA and other regulations relevant to R cases. We reviewed
Agency guidance, including the Guide for Staff Counsel of the National Labor
Relations Board for procedures in R case appeals. We also reviewed the NLRB's
SDLC Model and guidance from the Office of Management and Budget (OMB) to
determine whether modifications to the Judicial Case Management Systems
(JCMS), which includes PCL, were done in compliance with Government
policies. We reviewed the portions of the study conducted by Bearing Point
that pertain to the R Unit's responsibilities.

We obtained a database of R cases handled by the R Unit from OES. We tested
the database for illogical data. We computed case statistics for cases received
in FY 2003 and cases pending as of September 2003. We computed the trends
for the handling of cases by the R Unit for FY 1999 through FY 2003. We also
obtained and analyzed data through September 30, 2004 to determine whether
significant changes in performance occurred, but we performed no tests to
validate the data. We recalculated the Agency's FY 2003 Results Act statistics
for the measure exclusive to the R Unit's accomplishments and evaluated other
measures for which R Unit performance is included.

We selected a judgmental sample of 25 R cases that were received in FY 2003
and tested 14 PCL data fields to determine whether they were supported by
documentary evidence and whether the basis for the R Unit's recommendation
was in the file.

This survey was performed in accordance with generally accepted government
auditing standards during the period of April 2004 through January 2005 at
NLRB Headquarters in Washington, D.C.




                                       2
                                   FINDINGS

Over the past 6 years, the number of pending R cases assigned to the R Unit
ranged from 70 in FY 2000 to 145 in FY 2002 and decreased to 115 cases at
the end of FY 2004. The increases in pending R cases since FY 2000 occurred
even though the number of cases received decreased significantly. We did not
identify potentially significant structural or procedural issues within the R Unit
that contributed to the fluctuations in caseload. We concluded, therefore, that
a more detailed review of the R Unit was not necessary at this time.

We identified two issues. The Agency did not use its formal SDLC Model when
making two changes to PCL and a measure in the NLRB's FY 2003 Annual
Performance Report was calculated consistently with the FY 2002 calculation,
but not consistently with the narrative.


REQUESTS FOR REVIEW

Case Processing Time

The number of R cases received by the R Unit significantly decreased since FY
1999. The percentage of cases that were requests for review of D&DEs was
relatively consistent, ranging between 50 percent and 56 percent.

                       R Cases Received by the R Unit

                                    FY       FY     FY       FY      FY   FY
Type                               1999     2000   2001     2002    2003 2004
Requests for Review of D&DE         248      239    212      226     184  143
R Cases Assigned to the R Unit      442      441    414      427     353  288
   Percent                           56       54     51       53      52   50

The R Unit Director noted that the most pressing cases that the R Unit handles
are requests for review of D&DEs. According to the Agency's Statements of
Procedure, the Regional Director will normally schedule an election between 25
and 30 days after the date of the D&DE, unless a waiver is filed. The parties
are given 14 days to request review, so the R Unit only has between 11 and 16
days to prepare a recommendation for the Board to reach a decision. If the
Board does not reach a decision before the election is scheduled, the election
will be held, but the ballots are not counted until the decision is reached.
Because of the importance of getting a decision on the request for review before
the election is held, attorneys are often taken from other assignments to
prepare recommendations for these requests.




                                        3
The Director stated that the internal operating goal of the R Unit is to have the
Board act on a request for review of a D&DE prior to the election. The priority
that is given to D&DE cases can be seen in the chart below which shows that
over the past 6 years, these requests for review were processed in
approximately half the time as the R cases.


                   Average Days to Act on Closed R Cases
  120
               101.0
   80                                                                     82.5
                                                               70.1
                           58.0                     59.8
                                       49.3
   40          37.1                                 34.8       40.9       41.1
                           18.7        17.9
     0
         FY 1999       FY 2000    FY 2001       FY 2002    FY 2003    FY 2004
                                  All R Cases      D&DEs


Based on our calculation of average days, however, processing of D&DEs took
considerably longer than 14 days from the date assigned to counsel until the
date of Board action. Management stated that cases that are more complex,
such as cases of first impression, take longer than normal cases and skew the
average. The R Unit Director also noted other factors, including grants of
extensions for parties to file oppositions to requests for review, sporadic short-
term increase in requests for review received, and actions in the Regional Office
that postpone the need to act on the request for review, such as a pending
withdrawal request or a Regional Director's reconsideration of a decision.

The Director noted that the performance of the R Unit is gauged on processing
requests for review of D&DEs within 14 median days from the date R Unit
counsel is assigned to the date of Board action. The R Unit met this standard
from FY 1999 through FY 2004.

Management’s Comments

Management responded that the OIG draft report understates the number of
cases received by the R Unit in recent fiscal years.

OIG Response

The OIG determined the annual number of R cases received based on the R
case data in PCL provided by OES as of October 2004. The Director calculated
the annual number of cases received based on a monthly report, which he
entered into a spreadsheet. The Director provided the monthly reports, either


                                        4
from his files or regenerated by PCL, as supporting documentation for his
computation. We reconciled the supporting documentation to the PCL
database.

The monthly case totals on the Director's spreadsheet did not match the
supporting documentation he provided. Further, the supporting
documentation did not match the PCL database. Our analysis did not support
that the difference was unfair labor practice cases assigned to the R Unit.

Pending Cases

Over the past 6 years, the pending number of R cases in the R Unit at year-
end, as shown in the following chart, ranged from 70 to 145 and decreased to
115 cases at the end of FY 2004. The 115 cases as of September 30, 2004
were pending in the R Unit a median of 336 days or an average of 429 days.


                  R Unit Cases Pending At End of Fiscal Year
  150

  100
                                              145         141
    50      109                                                      115
                        70         73
     0
          FY 1999    FY 2000     FY 2001    FY 2002     FY 2003    FY 2004


Management noted that factors out of the control of the R Unit impact the
average time for cases pending. These factors include a number of cases
awaiting Board action on lead cases involving similar issues. The R Unit had
69 cases that were awaiting lead cases, including 45 cases resulting from the
Supreme Court's decision known as Kentucky River, which involved the
classification of nurses who exercised ordinary professional or technical
judgment in directing less-skilled employees to deliver services in accordance
with employer-specified standards. The Kentucky River cases have been
pending on average for 670 days as of September 30, 2004. In addition, the
Director stated that the R Unit also works on lead cases in which the Board is
changing case law or is hearing an issue for the first time. Because these cases
are more complex, the time for the Board decisions take longer. If lead cases
and related cases are excluded, R Unit cases would be pending on average
approximately 146 days.




                                        5
Management’s Comments

Management responded that the report gives an incomplete and, as a result,
inaccurate picture of the length of time D&DE cases are pending in the R Unit.
The response noted that if the 39 cases closed in FY 2003 that took over 50
days to issue are excluded from the calculation that the average pending time
in all cases is reduced to 15 days. The response stated that such time is due
in large measure to circumstances outside the control of the R Unit.

OIG Response

We believe that the most accurate way of representing the Agency's
performance is to include information that reflects the processing of all cases.
Eliminating 22 percent of the cases because they have the longest process
times does not provide a complete or accurate picture of the length of time
D&DE cases are pending in the R Unit. Our draft report acknowledged that
factors out of the control of the R Unit impact the average time for cases
pending. We also believe that stakeholders are interested in the total times to
process cases, not the time controlled by the R Unit.


SDLC MODEL FOR PCL

The Agency did not use its formal SDLC Model when making two changes to
PCL in FY 2004. The first change made in April 2004 consisted of merging
data tables related to R Unit cases with the OES data tables. The second
change made in August 2004 consisted of PCL being changed from an Access
database to a Structured Query Language (SQL) server.

PCL was created in 1999 to maintain the Board's case processing data.
Originally, PCL consisted of separate data tables for cases being processed by
Board Member staffs and the R Unit. The R Unit Director stated that the tables
were merged in order to standardize data input of closing dates and to allow
cases in the R Unit to appear on reports to the Board Members so that they can
monitor all R case activity. PCL was migrated to a SQL server for additional
functionality and to be compatible with the Agency's information technology
enterprise architecture.

OMB Circular A-130, Management of Federal Information Resources, dated
November 30, 2000, requires agencies to ensure that major information
systems proceed in a timely fashion towards agreed upon milestones in an
information system life cycle. This can be done through the SDLC
methodology. In our Review of Information Systems Security, OIG-AMR-30-00-
03, dated September 29, 2000, we recommended that the Agency develop an
SDLC. Our recommendation was implemented in FY 2002 when the Agency
established a formal SDLC that applied to all information systems.


                                        6
In OIG-AMR-30-00-03, we stated that the purpose of an SDLC is to (1) provide
a framework for ensuring systems are designed, developed, and implemented to
meet the needs and requirements of the agency; (2) ensure that systems work
as anticipated; and (3) ensure that controls are built into the system before
being placed into production. Additionally, the SDLC methodology provides the
framework for controlling software changes to reduce the potential for
unauthorized program changes. OMB Circular A-130 also requires agencies to
maintain current system documentation.

Management stated that the JCMS Section is using a spiral SDLC for changes
to JCMS. The documentation that the Agency is using a spiral SDLC in lieu of
the formal SDLC was created and provided to the OIG by Agency managers in
response to the discussion document for this survey. The Agency
acknowledged that, because of the requirements of the system, personnel
developing and maintaining the JCMS were not following the Agency's formal
SDLC, but were instead using a spiral methodology involving prototyping in
what is called Rapid Application Development. Management considers this an
adaptation of the Agency's formal SDLC that ensures adherence to budget
considerations, minimizes cost and risk, and maximizes efficiency. The
document provided to the OIG now stands as the system-specific SDLC for the
JCMS. Agency managers noted that while system requirements documents are
informally maintained, documentation meeting all of the requirements of the
formal SDLC does not exist. Because of the importance of this system, any
modifications to the system should be completed and documented in
accordance with Government policy.

Management’s Comments

Management responded that the OIG draft report incorrectly states that the
Agency created a JCMS-specific SDLC in response to the OIG discussion
document.

OIG Response

Page 6 of the draft report stated that the documentation, not the JCMS-specific
SDLC, was created in response to the discussion document. This agrees with
management’s comment that the Agency generated some written materials to
be responsive to OIG inquiries. The executive summary was changed to clarify
that the documentation was created and provided to the OIG in response to the
discussion document for this survey.




                                       7
COMPUTATION OF RESULTS ACT STATISTIC

Measure 1-6 of the NLRB's FY 2003 Annual Performance Report is "to issue
ruling on requests for review of Regional Director decisions within a 14-day
median." The FY 2003 Annual Performance Report provides results showing
that the Agency achieved this goal in FYs 2000 through 2003. The FY 2003
results were calculated consistently with the FY 2002 calculation. If the
calculation, however, was consistent with the narrative, the reported result
would increase from 14 days to 17 days.

Narrative information in the performance report states, "It is the Board's goal to
continue to issue these review decisions within 14 days from receipt." The
calculation is actually from the date assigned to counsel, usually days after
receipt by OES and the R Unit Director. We also noted that 5 of the 25 case
files examined (20 percent) did not have the annotated case assignment sheet
that documents the dates that the R Unit received the case and counsel was
assigned to the case.

The narrative also describes the cases included as only review decisions. The
calculation, however, actually includes withdrawn or moot cases as well as
those decided by the Board. For FY 2003, 34 of the 205 cases in the
calculation ended before the Board reached a decision on the request for review
and were included in the computation. These 34 cases were withdrawn or
rendered moot in a median of 10 days after being assigned to counsel.

Management said that the calculation should begin upon assignment to the
staff counsel because this is consistent with the calculation for unfair labor
practice cases, and not all cases are ready for assignment upon receipt.
Management also said that including withdrawn cases in the calculation more
accurately reflected R Unit productivity because substantial work may have
been performed on the cases.

We have previously commented in reviews of the Agency’s Results Act reports
that measures exclude time periods and certain cases from the results. The
exclusions reflect an office perspective rather than an agency-wide approach to
Results Act goals and often help to achieve the goal. As stated in Inspection
Report OIG-INS-05-00-02, Update of Results Act Implementation, issued March
16, 2000, we believe the beginning date used in the Results Act calculation
should be the date when the request was received in OES. The point is now
moot because the FY 2003 Annual Performance Report noted that this measure
has been dropped for FY 2005 and beyond, although it will continue to be used
as an internal management goal.




                                        8
Management’s Comments

Management responded that the report did not fully or adequately explain why
the GPRA 14-day median is calculated from the date the case was assigned to
counsel. The response noted that the time when cases were received but could
not be processed should be excluded from the calculation and provided many
situations in which that may occur.

Management also responded that our report exaggerates the amount of time it
takes from a case's receipt in the Headquarters mailroom, docketing by the
Executive Secretary's Office, receipt and docketing in the R Unit, and then
assigned to an attorney. The response stated that of the D&DEs issued in FY
2003, 88 percent of the cases went from the mailroom to the Executive
Secretary’s office and then to the R Unit within 1 business day and that 74
percent of the cases were assigned to counsel within 1 business day after
receipt in the R Unit.

OIG Response

The draft report acknowledged that not all cases may be ready for assignment
upon receipt, but did not state the amount of time it took from the receipt of
case until assignment. Rather, the draft report identified two differences that
in total would increase the median processing time from 14 to 17 days. The
additional time from using the receipt date in the calculation was 2 days,
which is consistent with management’s comments.




                                       9
     ATTACHMENT




10
                             R UNIT PROCESSES

Regional Director D&DEs and other R case decisions are e-mailed to OES,
which forwards all decisions to the R Unit. Requests for review are sent to the
OES, where the case is docketed and entered into PCL. The case is then
forwarded to the R Unit for administrative processing and evaluation by the R
Unit Director. The two R Unit support staff employees are responsible for the
data entry into PCL. Data input includes all actions that occur while the R
Unit is assigned to the case and the trail of documents. The R Unit Director
also has the ability to input data, which he stated he used only to correct
identified mistakes. He noted that the attorneys had read-only access.

The R Unit Director reads the request for review to determine the issues
involved, consults with supervisors, and then assigns the case to counsel using
an assignment sheet. The Director stated that the assignment is based on the
attorney's caseload, expertise in a given area, and developmental needs.

The attorney assigned to a case will then prepare a recommendation for the
Board based on the request for review, which is informally known as a screen.
The screen explains what the case involves and provides a recommendation to
grant or deny review. The recommendation will be given to the attorney's
supervisor and the Director for review and approval.

The decisions in R Unit cases are generally made differently from R cases
assigned to a Board Member's staff. R cases handled by a Board Member's
staff are generally assigned by OES on a rotating basis when cases are
received. Each Board Member heads a subpanel of three Board Members that
meets weekly to discuss and vote on that Board Member's cases. R cases
handled by the R Unit are generally assigned to a superpanel, which consists of
three Board Members who rotate on a monthly basis to vote on cases.

Superpanel usually meets on Wednesday. After review and approval, the
screen is e-mailed to the Board Members on the superpanel that will decide the
case. On the prior Friday, an agenda is prepared of cases to discuss at
superpanel. The R Unit Director stated that an agenda usually consists of 5 to
10 cases. On the Monday before superpanel, the attorney prepares a draft
order either granting or denying the request for the panel Members' signature.

The attorney will then present the case to superpanel. The Board Members on
the superpanel will ask questions about the order. If the Board Members agree
with the order, they will sign it. Occasionally they will request an amendment
to the order, such as when a Board Member dissents. The signed order will be
sent to OES, which will distribute the order to the parties.

If the request for review is denied, the case is considered closed and OES will
close the case in PCL. If the request for review is granted, the case will be


                                       11
reassigned to the attorney who worked on the request for review. The attorney
will obtain the transcript and hearing record from the Regional Office, review it,
and make a recommendation based on the case record. If the attorney has an
idea of how the Board will decide the matter in question, the attorney will
circulate a draft decision. If the attorney is unsure, a decisional memo will be
sent to superpanel. After a decision is reached, the order is sent to OES for
processing, and the R Unit sends the case file to the Case Records Unit.




                                       12
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board

Memorandum



To:              Jane E. Altenhofen                    Date: December 1, 2004
                 Inspector General

From:            Lafe E. Solomon, Director L*_
                                              2<-
                 Office of Representation Appeals

Subject          Report "Survey of the Office of Representation Appeals"
                 (OIG-AMR-44)

                 I wish to submit the following comments to the Report:

      I   The Report understates the number of cases received by the R-Unit in recent
          fiscal years For FY 2001 the total number of cases was 4 15, for FY 2002, 435,
          and for FY 2004, 29 1

          The Report gives an incomplete and, as a result, inaccurate picture of the length of
          time D&DE cases are pending in the R-Unit Of the 174 D&DE cases closed in
          FY 2003, 135 or 78% of these cases issued in under 50 days While the remaining
          cases may have been pending in the R-Unit for a lengthy period of time, such time
          is due in large measure to circumstances outside the control of the R-Unit, such as
          Board delay in issuing lead cases and Board Member turnover Further, the length
          of time this relatively small percentage of cases remains pending in the R-Unit
          inordinately skews the average time of all cases pending in the R-Unit, as
          referenced in the Report If the 39 cases that took over 50 days to issue are
          excluded from the calculation, the average pending time of all cases is reduced to
          15 days

          Similarly, of the 145 D&DE cases closed in FY 2004, 108 or 74 % of these cases
          issued in under 50 days. Excluding from the calculation the 37 cases that took
          over 50 days to issue, the average pending time of all cases is reduced to 15 days

          The Report does not fully or adequately explain why the GPRA 14-day median is
          calculated from the date a case is assigned to counsel. The goal was intended to
          serve as a performance measure for the R-Unit, and to accurately judge that
          performance, the time during which a case, although received, cannot be
          processed should be excluded from the calculation. Processing of some cases
          arriving in the R-Unit may be suspended for a variety of reasons: missing
          documents, reconsideration of the D&DE by the Regional Director based on the
          request for review, related cases still pending in the Regional Office,
    consideration by the Union of withdrawal of the petition, or unfair labor practice
    charges being considered by the Regional Director, the Office of Appeals, or an
    administrative law judge.

    Further, the Report exaggerates the amount of time it takes from a case's receipt
    in the Headquarters mailroom, docketing by the Executive Secretary's Office,
    receipt and docketing in the R-Unit, and then assigned to an attorney. For the
    overwhelming majority of cases, this time period is 2 days or less In FY 2003, of
    the 174 D&DE cases issued, 153 or 88% of the cases went from the mailroom to
    the Executive Secretary's Office and then to the R-Unit within 1 business day.
    Further, 129 or 74 % of the cases were assigned to counsel within 1 business day
    after receipt in the R-Unit, and an additional 15 or 9% of the cases were assigned
    within 2 business days.

    Similarly, in FY 2004, of the 145 D&DE cases issued, 123 or 85% of the cases
    went from the mailroom to the Executive Secretary's Office and then to the R-
    Unit within 1 business day Further, 1 13 or 78 % of the cases were assigned to
    counsel within 1 business day, and an additional 17 or 12 % of the cases were
    assigned within 2 business days.

4   The Report incorrectly states that the Agency created a JCMS-specific SDLC in
    response to the OIG discussion document for this survey. While the Agency did
    generate some written materials to be responsive to OIG inquiries, the Rapid
    Development/prototype SDLC procedures followed in this case are consistent
    with long-standing practices of the JCMS development team. These procedures
    were described in specific detail to OIG personnel at the initial phase of the
    survey. The subsequent written materials were prepared to supplement that
    presentation




cc: Board
    General Counsel
